U.S. Department of Labor             Office of Inspector General
                                     Washington, D.C. 20210

                                     Reply to the Attention of:
JUN 23, 1998


MEMORANDUM FOR:               CHARLES N. JEFFRESS
                              Assistant Secretary for Occupational Safety and Health

FROM:                         F. M. BROADAWAY
                              Assistant Inspector General for Analysis, Complaints and
                              Evaluations

SUBJECT:                      Review of Regional Office Operations OSHA Region II
                              Report No. 14-OACE-98-OSHA

This memorandum presents the results of a review of the Occupational Safety and Health
Administration (OSHA)’s Region II structure and operations conducted by the Office of
Inspector General (OIG), Office of Analysis, Complaints and Evaluations, Division of
Evaluations and Inspections, to address selective issues raised in a position paper concerning the
Region forwarded to 010 by the Office of the Secretary. The objective of the evaluation was to
assess the efficiency of OSHA/Region II’s administrative and management operations and any
related impact on program performance. Our review did not confirm the position paper’s
conclusions that significant opportunities exist to streamline Regional administrative and
program management operations. Furthermore, we concluded that the Regional Office’s program
support units contribute to, rather than detract from, the effectiveness of the Region in
accomplishing OSHA’s mission. This memorandum, therefore, is provided for informational
purposes and does not require a response.

I.     Background

The Office of the Secretary of Labor forwarded to OIG a position paper, entitled Waste and
Abuse in OSHA ‘s Region 11 Office, prepared by one of OSHA’s Region II managers. The
paper expresses a number of concerns regarding what is characterized as an unnecessary
Regional Office structure and its adverse impact on Area Offices as well as issues dealing with
general operational cost considerations in the New York Region. Following a review of pertinent
background information and an entrance conference with officials of the OSHA National Office,
it was decided that the predominant issues to be addressed would be the efficiency and cost
effectiveness of Regional operations.

II.    Objectives and Methodology

The overall objective of the evaluation was to assess the efficiency of OSHA/Region II’s
administrative and management operations and any related impact on program performance. The
review encompassed an assessment of regional support service efforts, including whether any of
those efforts duplicate tasks for which the Department’s Office of Assistant Secretary for
Administration and Management is responsible. For the purposes of our evaluation, we grouped
several of the issues raised in the Waste and Abuse in OSHA’s Region II Office paper into two
sub-objective categories: (A) to determine whether opportunities exist to streamline the Regional
Office’s administrative operations, increasing efficiency and providing additional resources for
program responsibilities; and (B) to evaluate the contributions of program oversight and
technical assistance units at the Regional Office in supporting OSHA’s mission in the Region.

In meeting our objectives, we interviewed OSHA staff both at the National Office and in Region
II, including 5 of the 12 Area Office Directors, regarding practices and procedures. The review
team also utilized a variety of evaluation techniques, including literature review, in-depth
interviews with relevant personnel, quantitative analysis and case studies.

Our review was conducted in accordance with the Quality Standards for Inspections published
by the President’s Council on Integrity and Efficiency.

III.   Review Results

       A.      Administrative Operations

       Our evaluation of the potential for streamlining Regional administrative operations
       encompassed a review of most of the major responsibilities of the Program Planning and
       Support (PPS) unit, with a focus on the primary issues regarding administrative
       efficiency cited in the paper, Waste and Abuse in OSHA 's Region II Office, prepared by a
       former Area Office Director from the Region. We did not confirm the concerns raised by
       the paper’s author with respect to disproportionate resources dedicated to administrative
       activities or duplication of services provided by Regional staff of the Office of Assistant
       Secretary for Administration and Management (OASAM). Our review of program
       management reports prepared by the PPS unit and interviews with Region II Area
       Directors supported the contributions of these products to the effective administration of
       the Region. Since reviews of Region II’s personnel actions were in progress or planned
       by the OSHA National Office and OASAM, we excluded PPS’ personnel responsibilities
       from our review coverage. However, with respect to the PPS activities reviewed, we did
       not identify opportunities for the streamlining of administrative operations.

       Although the former OSHA Area Director criticized the resources dedicated to Regional
       Office activities at the expense of field inspections performed by the Area Offices in his
       paper, the ratio of staff assigned to Area Offices as compared to the Regional Office has
       not varied significantly for Region II from fiscal year 1994 through June 1997 and
       compares favorably with the data for other OSHA Regions. In June 1997, Region II had a
       ratio of 7.46 Area Office employees per staff member assigned to the Regional Office as
       compared to 7.16 in 1994, .with lower ratios in the intervening years of 7.10 and 6.77 in
       1995 and 1996, respectively. Both the Philadelphia and Atlanta OSHA Regions had
       lower ratios of Area Office staff to Regional Office employees in June 1997 (5.32 and
       5.31, respectively).
With personnel operations excluded from the scope of our review, the primary PPS
administrative responsibility we examined was the budget and fiscal area and we
concluded that PPS’ efforts supplemented, rather than duplicated, services available from
the Regional OASAM staff. In overseeing OSHA’s regional and area budgets, the PPS
unit tracks expenditures as well as invoices awaiting payment, whereas OASAM only
tracks actual expenditures. PPS’s supplemental tracking system better ensures that
invoices are paid within the standards established by the Prompt Payment Act and affords
the Region more current financial management information. In addition, the PPS unit
reformats budget reports received from OASAM into more user friendly reports for
distribution to the Area Offices, facilitating effective financial management by the Area
Directors. PPS staff have also supplemented administrative services available from
OASAM when necessary to ensure timely support to OSHA Region II staff. For example,
a member of PPS conducted a leave audit for an employee nearing retirement when
OASAM Regional staff had been unable to respond for a prolonged time period to the
OSHA Regional Office’s request for the leave audit.

The PPS unit was also assigned a variety of Regional program and administrative
oversight and management responsibilities, entailing both routine statistical reporting and
reviews of a more evaluative nature. PPS staff coordinated regularly scheduled on-site
management reviews of the Area Offices which included evaluations of administrative
issues addressed by PPS staff members and program issues reviewed by senior
Compliance Safety and Health Officers (CSHO) drawn from the other Region II Area
Offices. In addition, the PPS unit was responsible for conducting special studies which
often addressed a specific program topic on a Region-wide basis. For example, PPS staff
completed a special study of the focused construction inspection initiative in response to
nationwide statistical data indicating Region II had completed a lower percentage of such
inspections than other Regions.

Most of the Area Office Directors we interviewed considered the majority of PPS’
reports to be of assistance in managing operations and our review of a limited sample of
the reports reached a similar conclusion. With respect to the statistical reports
extrapolated from information input into OSHA’s management information systems, all
of the Area Office Directors did not find the reports of equal value but the reports
considered of greatest and least benefit varied among the managers. While most of the
Area Office Directors advised that their staff’s technical skills were not adequate to
provide statistical reports comparable to those generated by the Regional Office, even the
Directors with the capacity to obtain the data preferred for the Regional Office to provide
this assistance, permitting them to maximize the use of their staff in the performance of
inspections. We reviewed a limited sample of PPS’ management reports on Area Offices
and special studies and found that both types of reviews identified significant issues
requiring attention and included recommendations for improving the effectiveness and
efficiency of program operations. The special study of the focused construction
inspection initiative referenced above, for example, identified several causes for the
decrease in the number of such inspections including inconsistent implementation of the
guidelines for the initiative and a fundamental lack of understanding of the directive. The
report provided eight recommendations or action items to ensure that the Region would
meet the objectives of the initiative, including designating the Area Office which had
made the most significant progress to provide necessary technical assistance to the other
Area Offices.

B.     Program Oversight and Technical Assistance Units

The Regional Office, through its Federal State Operations (FSO), Training, Education,
Consultation, Federal Agency Programs (TECFAP), and Technical Services (T/S) units,
ensures uniform interpretations of OSHA regulations and contributes leadership and
coordination in the accomplishment of the program’s goals. These program oversight and
technical assistance units have, when necessary, provided services which supplement the
responsibilities of other OSHA units to enhance Regional program performance. Our
evaluation found no evidence to support that the functions of the Regional Office’s
program oversight and technical assistance units could be readily assigned to the Area
Offices or that Regional Office involvement delays the abatement of hazardous
conditions, as indicated in the paper Waste and Abuse in OSHA's Region II Office.

The Federal State Operations staff is the key technical resource and review unit
responsible for the uniformity of safety and health program efforts of Region II Area
Offices. It is the unit to which Area officials turn for expert technical advice, opinions or
review of certain technical case documents. If a technical or procedural question arises
during a safety/health inspection, FSO conducts the research to determine the answer.
While much information is available on-line, there are still publications only available as
hard copies; the Regional Office has a fully functioning library that would be inefficient
to duplicate at the Area level. The FSO also provides Area Offices guidance and
instructions on National Emphasis Programs and follows up to ensure effective and
consistent implementation. The FSO staff also review case files for accuracy and
uniformity, and in an arrangement with the Regional Solicitor’s Office (SOL), ensures
that significant cases are complete and legally sufficient before their submission to SOL.
This arrangement was instituted after several technical reviews by FSO staff had resulted
in changes to the citations of standards SOL had initially accepted from the Area Offices.

Among the issues raised in the paper Waste and Abuse in OSHA's Region II Office, we
placed particular attention on the question of whether FSO’s involvement in the most
significant cases extended the time required to abate serious workplace hazards, and our
review did not confirm the author’s conclusions in this regard. Specifically, we noted that
the CSHO conducting any inspection attempts to secure immediate abatement of
identified hazardous conditions and issues citations, when applicable, before leaving the
site. While reviews by FSO may recommend a change in the technical standard cited, the
level of the violation or the amount of the fine, such actions usually occur subsequent to,
or in rare cases concurrent with, efforts to obtain hazard abatement. During our
interviews, the former Area Office Director was unable to cite any specific examples of
delays in the abatement of hazardous conditions resulting from FSO reviews to
supplement our case studies.

Although the former Area Office Director who prepared the paper Waste and Abuse in
       OSHA Region II Office expressed the opinion that activities conducted by the Regional
       Office’s technical assistance units could be transferred to the Area Offices, we concluded
       that decentralizing the responsibilities of the Training, Education, Consultation, Federal
       Agency Programs unit to the Area Offices would reduce the effectiveness and efficiency
       of program operations in the Region. TECFAP is responsible for providing consultative
       services funded under 7(c)(1) of the OSHA, conducting program evaluations and
       coordinating related efforts, such as training conferences and grant administration, under
       the state safety and health programs for both New York and New Jersey. TECFAP is also
       responsible for OSHA’s Voluntary Protection Programs which reviews companies’ self-
       administered volunteer safety/health programs. The TECFAP staff develop and direct a
       complete program providing administrative, technical, and consultative services to
       Federal agencies as well as Field Federal Safety and Health Councils on standards,
       regulations, and compliance requirements of the legislation. The consultation programs,
       in particular, require a level of program experience and expertise beyond that of the
       average Area Office CSHO. Furthermore, decentralizing these program activities would
       curtail the resources available to the Area Offices for conducting inspections, a topic of
       primary concern in the former Area Office Director’s paper. Lastly, TECFAP maintains
       an extensive videotape and slide inventory for professional and technical education
       purposes which could not be efficiently replicated in each Area Office.

       Lastly, our reviews did not confirm the former Area Office Director’s positions either
       that the basic introductory training for new CSHOs provided by the Region’s Technical
       Services unit duplicated training available from OSHA’s Training Institute or that the
       quality of the instruction was substandard. Officials of the Training Institute advised us
       that they were unable to schedule introductory training for this group of newly hired
       CSHOs in a timely manner and were pleased that Region II had provided its own
       training. With respect to the quality of the training program, our reviews of the
       evaluations completed by the participants found that the Region’s composite score for the
       category “Overall Rating” for the course was a 4.2 on a scale of 5, i.e., an average score
       between very good and excellent. From the participant evaluations, we did not identify
       any patterns or trends reflecting areas requiring improvements for the Region’s basic
       training course.

In summary, our review of selected issues raised in the position paper Waste and Abuse in
OSHA's Region II Office did not identify significant opportunities to streamline Regional
administrative and program management operations. We concluded that the units and activities
included in the scope of our review contribute to the Region’s effectiveness in accomplishing
OSHA's mission. Reassigning the Regional Office’s program oversight and technical assistance
responsibilities to Area Offices, as proposed in the position paper, would result in an inefficient
duplication of functions and reduce the resources available for inspections. The administrative
responsibilities assigned to the Program Planning and Support unit could not be readily
transferred to OASAM as indicated in the position paper since the majority of these activities
either supplemented services offered by OASAM or pertained to the management of OSHA’s
programs within the Region.

Since no issues requiring corrective action were identified during this review, this memorandum
report is considered closed upon issuance and no response is required. We appreciate the
cooperation received from OSHA officials during the course of this review. If you have any
questions concerning this report, please contact Veronica M. Campbell at (202) 219-8446, ext.
143.

Major Contributors to this Report:

Ricardo Gomez, Program Analyst
Thomas Roadley, Program Analyst

cc: P. Clark
